Department of Homeland Security
   Ofﬁce of Inspector General

              FEMA's Logistics Management Process 

             for Responding to Catastrophic Disasters 





OIG-10-101                                                July 2010
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                        July 7, 2010

                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of the Federal Emergency
Management Agency’s Logistics Management Directorate’s process for responding to
catastrophic disasters. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General 


                     Inspector General
Table of Contents/Abbreviations

Executive Summary .............................................................................................................1
 


Background ..........................................................................................................................2 


Results of Review ...............................................................................................................4 


     LMD Initiatives..............................................................................................................5 


Conclusion .........................................................................................................................13 


Recommendations..............................................................................................................14
 


Management Comments and OIG Analysis ......................................................................14 



Appendixes
     Appendix A:           Purpose, Scope, and Methodology.......................................................15 

     Appendix B:           Management Comments to the Draft Report .......................................16 

     Appendix C:           FEMA Logistics Organizational Components.....................................19 

     Appendix D:           Major Contributors to this Report........................................................20 

     Appendix E:           Report Distribution ..............................................................................21 



Abbreviations
     CORE                  Cadre of On-call Response Employees 

     DHS                   Department of Homeland Security 

     FEMA                  Federal Emergency Management Agency 

     FY                    Fiscal Year            

     GSA                   General Services Administration 

     LMD                   Logistics Management Directorate 

     OIG                   Office of Inspector General 

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                     The Federal Emergency Management Agency has made significant
                     progress in enhancing its logistics capability and, based on recent
                     initiatives, is better prepared now than at any previous time for
                     dealing with a catastrophic disaster. Notwithstanding dramatic
                     changes following a congressionally mandated reorganization in
                     2007, which resulted in the creation of the Logistics Management
                     Directorate, a number of persistent issues inhibit further
                     improvement.

                     The agency has made great strides to improve its logistics
                     capability by: (1) increasing staff levels; (2) training and
                     developing personnel; (3) enhancing coordination among federal,
                     state, and local governments, nongovernmental organizations, and
                     the private sector; (4) developing plans and exercises to improve
                     readiness; (5) utilizing interagency agreements and contracts for
                     needed commodities; (6) conducting meetings and teleconferences
                     with logistics partners; and (7) reviewing and evaluating
                     performance. The logistics transformation that began in 2007 is
                     expected to be completed by 2014.

                     Despite progress at the federal level, corresponding improvements
                     in many of the state and local governments have lagged behind due
                     to staffing and budget restrictions. Another difficulty is the
                     inability of the agency’s information systems to communicate
                     directly with the systems of their federal partners.

                     We are making two recommendations to assist FEMA in its
                     management and oversight function. We will follow up on
                     progress made in this area during our scheduled Federal
                     Emergency Management Agency Disaster Preparedness
                     Inspection.




         FEMA’s Logistics Management Process for Responding to Catastrophic Disasters 


                                            Page 1
 

Background
                         In 2007, the House Committee on Oversight and Government
                         Reform requested that the Office of Inspector General assess the
                         Department of Homeland Security (DHS) Federal Emergency
                         Management Agency’s preparedness for the next catastrophic
                         disaster. In March 2008, we issued the report FEMA’s
                         Preparedness for the Next Catastrophic Disaster (OIG-08-34) in
                         response to that request. This follow-up report focuses on
                         FEMA’s initiatives to increase its logistics preparedness for
                         catastrophic incidents.

                         Logistics deals with the procurement, supply, and maintenance of
                         equipment and the provision of facilities; with the movement,
                         evacuation, and supply/support of personnel and services; and with
                         related matters. As defined by legislation, 1 a catastrophic incident
                         is “any natural disaster, act of terrorism, or other manmade disaster
                         that results in extraordinary levels of casualties or damage or
                         disruption severely affecting the population (including mass
                         evacuations), infrastructure, environment, economy, national
                         morale, or government functions in an area.” By these criteria,
                         Hurricane Katrina qualified as a catastrophic incident.

                         The hurricane’s devastation overwhelmed the capacity of federal,
                         state, and local governments to respond and recover. FEMA
                         experienced significant challenges, some of which garnered media
                         attention and invoked public criticism. Logistical shortcomings
                         involved misplaced shipments, spoiled food that had to be
                         discarded, and wasted truckloads of ice left to melt. The difficulty
                         of responding to such a catastrophic event was a catalyst for
                         changes in federal policy and reorganization within FEMA.

                         A major change was the Post-Katrina Emergency Management
                         Reform Act (see note 1), which required FEMA to lead and support
                         the Nation in a comprehensive emergency management system of
                         preparedness, protection, response, recovery, and mitigation. The
                         act further required FEMA to develop an efficient, transparent, and
                         flexible logistics system for procurement and delivery of goods
                         and services necessary to respond to natural disasters, acts of
                         terrorism, other manmade disasters, and for real-time visibility of
                         items throughout the logistics system.

1
 The Post-Katrina Emergency Management Reform Act of 2006 (P.L. 109-295), Title VI – National
Emergency Management, Department of Homeland Security Appropriations Act of 2007.


             FEMA’s Logistics Management Process for Responding to Catastrophic Disasters

                                               Page 2
            In April 2007, as part of FEMA’s reorganization, the logistics
            function, which had been a small branch within the former
            Response Division, was elevated to a directorate. The Logistics
            Management Directorate (LMD) is FEMA’s major program office
            responsible for all aspects of logistics policy, guidance, standards,
            execution, and governance of logistics activities.

            Originally tasked with providing recovery assistance following
            major disasters, LMD’s new mission is to plan, manage, and
            sustain the national logistics response and recovery operations
            response to domestic emergencies and special events. In carrying
            out that mission, LMD serves as the National Logistics
            Coordinator and is responsible for coordinating with partners in the
            public and private sectors in order to strategically position initial
            and follow-on response resources based on anticipated need, and to
            distribute the assets to the states in a timely manner. The concept
            recognizes that LMD must collaborate with its national partners to
            promote a truly integrated disaster logistics approach.

            Figure 1 shows an organization chart of the new LMD.



   Figure 1: Logistics Management Directorate Organization Chart




   Source: OIG, prepared using FEMA data. A description of LMD’s major component
   units is contained in Appendix C.




FEMA’s Logistics Management Process for Responding to Catastrophic Disasters 


                                   Page 3 

Results of Review
                   FEMA has made great strides to improve its logistics capability by:
                   (1) increasing staff levels; (2) training and developing personnel;
                   (3) enhancing coordination among federal, state, and local
                   governments, nongovernmental organizations, and the private
                   sector; (4) developing plans and exercises to improve readiness;
                   (5) utilizing interagency agreements and contracts for needed
                   commodities; (6) conducting meetings and teleconferences with
                   logistics partners; and (7) reviewing and evaluating performance.
                   Given the recent initiatives, FEMA is better prepared now than at
                   any previous time for dealing with a catastrophic disaster. The
                   logistics transformation that began in 2007 is expected to be
                   completed by 2014.

                   In keeping with the National Response Framework, which
                   provides guidance for managing incidents, FEMA’s LMD is the
                   National Logistics Coordinator, as co-lead of Emergency Support
                   Function #7 with the General Services Administration (GSA).
                   FEMA provides initial response resources and integrates the
                   activities of the logistics emergency management community,
                   which includes federal, state, nongovernmental, and private sector
                   logistics partners. FEMA is also involved with increasing the
                   states’ planning and execution capabilities.

                   Despite FEMA’s recent initiatives, which are described below, a
                   number of factors inhibit continued enhancement of the logistics
                   community’s capabilities. Although FEMA and its federal
                   partners have made progress, corresponding logistics
                   improvements at the state and local levels have lagged behind.
                   Some states do not have adequate logistics functions, and the
                   situation is unlikely to change in the current fiscal environment.

                   Another difficulty is the inability of FEMA’s information systems
                   to communicate directly with the systems of federal partners,
                   including GSA, the Defense Logistics Agency, and the U.S. Army
                   Corps of Engineers. To address this issue, a 4-year development
                   plan was recently assigned new contracts to reconfigure the
                   software in a way that would allow FEMA to communicate with its
                   partners’ systems. FEMA’s logistics system is not expected to be
                   fully functional for several years.

                   FEMA also faces internal logistics challenges. As part of the LMD
                   transformation, FEMA identified the need for permanent full-time


        FEMA’s Logistics Management Process for Responding to Catastrophic Disasters

                                          Page 4
              regional logisticians to plan, lead, and coordinate activities during
              disasters and to assist state and local governments.

LMD Initiatives
              To assess LMD’s progress, we reviewed the following key
              functional areas:

                   �   Staffing, Training, and Credentialing
                   �   Planning
                   �   Coordinating
                   �   Sourcing
                   �   Tracking and Timing Deliveries
                   �   Communications
                   �   Evaluating Performance

              Staffing, Training, and Credentialing

              FEMA relies on a staffing combination of permanent full-time
              employees, temporary employees, and contractors to respond to
              incidents. Since FEMA reorganized in 2007, it has almost tripled
              the number of permanent full-time logistics staff from 54 to 150,
              and reprogrammed 15 headquarters positions to the field, where
              there was a greater need. In addition, FEMA has increased its
              experienced disaster temporary workforce, including hundreds of
              Cadre of On-call Response Employees (CORE).



              Table 1. LMD Staffing Totals

                               LMD Staffing Totals
                Type of Appointment           Allocated Positions
                                               FY07       FY 09
                Full-time Positions              67        163
                CORE Positions                  184        321
                Totals                          251        484
              Source: Prepared by OIG, from FEMA data.

              FEMA has also partly addressed staffing shortfalls through its
              training strategy. Staff rotations were arranged in order to train
              employees in multiple areas, and additional systems training was
              implemented. In 2009, FEMA hosted a National Training
              Symposium called “Boot Camp 09.” This event involved internal

   FEMA’s Logistics Management Process for Responding to Catastrophic Disasters

                                     Page 5
           and external partners, including more than 150 logistics reservists
           and staff from all 10 regions for predisaster synchronization and
           training. Topics of discussion included the latest logistics
           concepts, policy changes, new processes, and lessons learned.

           FEMA launched the Credentialing Plan, which aims to standardize
           the training, experience, and skill requirements for logistics
           personnel serving in disaster-related positions. The plan provides
           current and prospective workforce members with a clear
           understanding of the specific skill sets and experiences required
           and concise guidelines for each position. Training began at the end
           of 2009, with a goal of having 85% of all disaster assistance
           employees fully certified by the end of 2010.

           Planning
           In conjunction with FEMA headquarters and regions, LMD
           develops plans and coordinates exercises aimed at identifying
           limitations and enhancing readiness. Using lessons learned during
           exercises, LMD works with FEMA regional offices and state
           responders to conduct after-action reviews and implement
           corrective measures. The regional offices also determine likely
           disaster scenarios within their respective regions, taking into
           account the infrastructure, resources, and preparedness of the state,
           local, and tribal governments to respond to incidents. The regional
           offices are the primary conduit through which information flows
           between FEMA and emergency responders at the state and local
           levels. In 2008, FEMA established Regional Planning Teams to
           assist its regional offices in supporting their state, local, and tribal
           partners.

           Despite recent progress, FEMA is concerned that budget
           constraints in the current economic condition will hinder the ability
           of state and local governments to participate in future planning and
           exercises.

           Planning activities are closely coordinated with other FEMA
           directorates that set planning milestones, establish working groups,
           and conduct training exercises. FEMA also coordinates plans with
           its federal logistics partners: GSA, the Defense Logistics Agency,
           and the U.S. Army Corps of Engineers.

           Coordinating
           As the National Logistics Coordinator, co-lead of Emergency
           Support Function #7, FEMA relies on strong collaboration with

FEMA’s Logistics Management Process for Responding to Catastrophic Disasters

                                  Page 6
           other federal agencies, nongovernmental organizations, state and
           local governments, and the private sector to establish integrated
           disaster support supply chains. To improve coordination
           throughout the logistics process, FEMA conducted the first
           National Logistics Coordination Forum in March 2008, consisting
           of representatives from all supply chain partners. A subset of this
           forum, the Distribution Management Strategy Working Group, was
           established to analyze and develop a comprehensive distribution
           and supply chain management strategy. In April 2009, FEMA
           issued guidance for integrating the operations and logistics
           functions at the incident, regional, and headquarters levels.

           FEMA regional offices are responsible for coordinating with state,
           local, and tribal governments as well as channeling information
           between state and local responders and FEMA headquarters. The
           regional offices are also responsible for determining likely disaster
           scenarios in their geographic areas and assessing their state and
           local counterparts’ preparedness.

           FEMA works with the U.S. Chamber of Commerce and with trade
           associations to build awareness of logistics processes and
           procedures. Biweekly “Vendor Day” meetings are held to invite
           private sector companies to share information on their products
           and services.

           FEMA also works closely with nongovernmental disaster relief
           organizations providing coordination and support. In 2009, a
           consortium of voluntary organizations active in disasters presented
           FEMA with its annual “Partner of the Year” Award for the
           agency’s assistance to the nongovernmental disaster relief
           community.

           Sourcing

           FEMA relies on four different sourcing methods to acquire
           commodities needed to respond to a disaster: (1) warehoused
           goods; (2) interagency agreements; (3) mission assignments; and
           (4) contracts.

           Warehoused goods are controlled by FEMA and are immediately
           available when incidents occur. However, most warehoused goods
           have a limited shelf life, and may have to be discarded if not used
           within that shelf life. Warehoused goods include Initial Response
           Resources, which are intended to sustain life and prevent further
           property damage. Table 2 shows a partial list of these items.

FEMA’s Logistics Management Process for Responding to Catastrophic Disasters

                                  Page 7
           Table 2. Initial Response Resources to Sustain Life and
           Protect Property
                                 Resources
             Water                      Cots
             Tarps                      Blue roof sheeting
             Meals                      Blankets
           Source: Prepared by OIG, from FEMA data.

           To ensure that Initial Response Resources are available where
           needed, they are strategically stored through FEMA’s Pre-positioned
           Disaster Supplies Program. Initial Response Resources are pre-
           positioned at areas with high hurricane and earthquake risk, as well
           as at various locations ready for transport. Pre-positioned Initial
           Response Resources were delivered to Guam in preparation for a
           typhoon threatening the Northern Mariana Islands.

           FEMA uses interagency agreements to access contracts held by
           other federal agencies. For example (as shown in table 3), FEMA
           has interagency agreements with the Defense Logistics Agency and
           GSA for a number of items, including water and emergency meals.



           Table 3. Examples of Interagency Agreements, 2008

                       Agency                              Good/Service
            Federal Protective Service             Guard services
            General Services
                                                   Water
            Administration
                                                   Emergency meals
            Defense Logistics Agency
                                                   Fuel
            Immigration and Customs                Transportation of the FEMA
            Enforcement                            Administrator
            General Services
                                                   Contract support for operations
            Administration
            U.S. Department of Housing             Disaster Housing Assistance
            and Urban Development                  Program
            Federal Bureau of
                                                   Processing of fingerprints
            Investigation
                                                   Oversight of debris removal
            U.S. Coast Guard
                                                   from navigable waterways
           Source: Prepared by OIG, from FEMA data.


FEMA’s Logistics Management Process for Responding to Catastrophic Disasters

                                  Page 8
           Mission assignments are work orders issued by FEMA to other
           federal agencies that direct the completion of a specific task and
           are intended to meet urgent, immediate, and short-term needs.
           They allow FEMA to quickly task federal partners to provide
           critical resources, services, or expertise. To expedite the delivery
           of federal assistance, FEMA has developed hundreds of pre-
           scripted mission assignments with 30 federal agencies (see table
           4).



           Table 4. Examples of Mission Assignments, 2008

                        Agency                           Description of Work
             U.S. Army Corps of                   Oversight of state and/or local
             Engineers                            entities’ debris operations; water
             U.S. Army Corps of                   Planning and preparation for
             Engineers                            temporary roofing
             U.S. Coast Guard                     Mobile communication teams
             Federal Protective Service           Contract security officers
             U.S. Department of                   Personnel to control the spread of
             Agriculture                          animal disease agents
             U.S. Forest Service                  Emergency road clearing
             National Geospatial                  Support for the FEMA Urban
             Intelligence Agency                  Search and Rescue operations
             U.S. Department of Defense           Aircraft and personnel to support
                                                  medical patient evacuation
             U.S. Department of Health            Medical evacuation of patients
             and Human Services
             National Park Service                Support of FEMA search and
                                                  rescue disaster operations
             Environmental Protection             Conduct oil and hazardous
             Agency                               materials field operations
           Source: Prepared by OIG, from FEMA data.

           As table 5 shows, FEMA also uses contracts, which can be
           activated following an incident to provide services such as
           ambulance and bus evacuation, facilities support, electrical
           generator maintenance, and temporary housing support.




FEMA’s Logistics Management Process for Responding to Catastrophic Disasters

                                  Page 9
                           Table 5. Examples of Advance Contracts in Place, 2008

                                                      Type of Service
                             Disaster Legal Services
                             Hotel Authorization (Intake Management) for Disaster Victims
                             Housing Inspection Services
                             Temporary Housing Support
                             Maintenance of Disaster Housing
                             Generator Maintenance
                             Evacuation Planning and Operational Support
                             Base Camp Support
                             Ambulance Services
                           Source: Prepared by OIG, from FEMA data.

                           In August 2009, we issued a report 2 that examined FEMA’s
                           sourcing and concluded that the existing decentralized process
                           suffered from inefficiencies, including poorly integrated
                           information systems, and was susceptible to duplication and waste.
                           FEMA agreed with our findings and is working with its partners to
                           develop processes to make the planned Single-Point Ordering
                           system a reality. Like some of the other initiatives, this system is
                           not expected to be fully implemented for several years.

                           Tracking and Timing Deliveries

                           As part of the agency’s restructuring, FEMA set out to transition to a
                           “21st century” logistics system that would incorporate modern
                           efficiencies, allowing FEMA to store and ship fewer supplies, yet
                           have greater assurance that they will arrive when and where needed.

                           As a first step, in 2005, FEMA began implementing the Total
                           Asset Visibility program, which is designed to provide asset and
                           in-transit visibility as well as electronic order management for all
                           primary commodities.

                           Costs of FEMA’s Total Asset Visibility Program

                           The initial attempt to implement this program cost FEMA
                           $117.3 million over 4 years. FEMA transitioned the program into
                           the Logistics Supply Chain Management System, or Phase II,
                           which is designed to address earlier shortcomings such as

2
    FEMA’s Sourcing for Disaster Response Goods and Services, OIG-09-96, August 2009.

                FEMA’s Logistics Management Process for Responding to Catastrophic Disasters

                                                  Page 10
                         information transfer, systems interaction, data entry, and data
                         accuracy issues while providing data access to federal, state, tribal,
                         and local logistics partners. Phase II is expected to cost
                         $93.8 million and be operational by 2012. As shown in table 6,
                         FEMA estimates that the continued operation and maintenance will
                         cost $109.9 million.



                         Table 6. Costs for Total Asset Visibility/ Logistics Supply
                         Chain Management System

                             Period                  Phase                Actual/Projected
                                                                               Cost
                          2005–2009
                                                     Phase I              $    117,311,000
                          2009–2012
                                                    Phase II                     93,832,000
                          2012–2017              Operations,
                                               Maintenance, and                109,938,000
                                                Management
                                                  Total Costs             $ 321,081,000

                         Source: Prepared by Logistics Management Directorate.

                         Phase II is not yet fully functional, which hinders FEMA’s ability
                         to accurately report and facilitate decisions. FEMA has partnered
                         with GSA and the Defense Logistics Agency as customers, and
                         both agencies have responded positively to the system’s projected
                         features. FEMA’s ability to respond to catastrophic disasters will
                         be limited until the system is fully implemented.

                         Given that the initial Total Asset Visibility project had to be
                         directed into a second phase, it is unclear whether sufficient quality
                         controls and assurances are in place to evaluate whether the system
                         is being developed according to specifications, and whether it will
                         deliver what the agency needs. We raised similar concerns about
                         other information technology systems in 2006 and 2008 3 . It is
                         important that LMD consult with FEMA’s Chief Information
                         Officer to determine whether Phase II is progressing on schedule
                         and whether an independent evaluation of the system is warranted.

3
 FEMA’s Progress in Addressing Information Technology Management Weaknesses, OIG-07-017,
December 2006; and Logistics Information Systems Need To Be Strengthened at the Federal Emergency
Management Agency, OIG-08-60, May 2008.

             FEMA’s Logistics Management Process for Responding to Catastrophic Disasters

                                               Page 11
            Communications
            Recognizing that communication was the single largest failure
            during the 2005 hurricane season, the LMD has taken a number of
            positive steps. To facilitate communication, it holds weekly
            teleconferences between headquarters and regional staff, as well as
            other federal agencies involved in logistics. Several regional
            managers we spoke with expressed satisfaction with recent
            communications initiatives, reporting good interactions between
            headquarters and the field, improved communications, active
            regional involvement, and finally having “a voice at the
            headquarters level.”

            LMD also hosts periodic “summit” meetings featuring
            presentations by FEMA and other federal partners, including GSA,
            the Defense Logistics Agency, and the U.S. Army Corps of
            Engineers. These meetings are a platform to discuss ongoing
            initiatives, solicit ideas, and discuss lessons learned. Recent
            discussions have included: (1) other federal agencies’ roles to
            leverage buying power for improved response and lower costs;
            (2) providing emergency resources; and (3) deploying facilities for
            storing and distributing emergency commodities.

            In an effort to standardize and disseminate best practices, LMD has
            issued a number of guidance documents. In FY 2009, it issued
            several guidance documents, including the Temporary Housing Unit
            Concept of Operations, the Logistics Operations Manual, and the
            Logistics Management Center Standard Operating Procedures.
            Evaluating Performance
            Following each exercise or actual incident, LMD conducts after-
            action reviews to discuss with supply chain partners any challenges
            encountered, where corrective actions are needed, and what best
            practices should be applied moving forward. Corrective actions
            are monitored, and when successful, incorporated into procedures,
            policies, and training.
            Through face-to-face meetings, FEMA works with regional
            logistics staff to identify areas needing attention, including the
            states’ capabilities. Plans are then designed and implemented to
            address areas of need.




FEMA’s Logistics Management Process for Responding to Catastrophic Disasters 


                                  Page 12 

                  FEMA generators are unloaded from a C-17 military cargo plane in American
                  Samoa to help provide electric power to disaster survivors following the
                  September 2009 tsunami. Photo by Casey Deshong/FEMA


Conclusion
                  FEMA has made substantial progress in the logistics area, but
                  continues to face challenges as it enhances preparedness. In
                  carrying out its role as the National Logistics Coordinator, LMD is
                  responsible for coordinating with public and private sector partners
                  to provide a truly integrated approach to disaster logistics.

                  FEMA faces challenges regarding its inability to communicate
                  directly with the information systems of its federal partners.
                  Because of the importance placed on the yet-to-be completed Total
                  Asset Visibility program and because it is expected to cost more
                  than a quarter billion dollars over the 7-year development stage, it
                  is important that LMD consult with the FEMA Chief Information
                  Officer to determine whether the proposed Phase II has the ability
                  to support logistics operations, whether it is progressing on
                  schedule and whether an independent evaluation of the system
                  should be conducted.

                  Some state and local jurisdictions’ logistics capabilities are
                  deficient because of staffing and budget shortfalls. FEMA is
                  aware that those deficiencies detract from the concept of
                  community integration. FEMA needs to explore alternative ways
                  to identify state and local shortcomings and to help those
                  jurisdictions to enhance their capabilities.

       FEMA’s Logistics Management Process for Responding to Catastrophic Disasters

                                         Page 13
Recommendations
                   We recommend that the Administrator, Federal Emergency
                   Management Agency:

                   Recommendation #1: Evaluate whether the Total Asset Visibility
                   system being developed is on track to support logistics operations.
                   The evaluation should include such functions as
                       � information technology systems’ requirements,
                       � staffing needs, and
                       � coordination with emergency management partners.

                   Recommendation #2: Work with state partners to identify and
                   overcome state and local logistical deficiencies.

Management Comments and OIG Analysis
                   FEMA concurs with our recommendations and will provide us
                   with a detailed corrective action plan, with timeframes, in 90 days.
                   We consider the two recommendations resolved but open, pending
                   receipt and review of FEMA’s corrective action plan.




       FEMA’s Logistics Management Process for Responding to Catastrophic Disasters 


                                         Page 14 

Appendix A
Purpose, Scope, and Methodology

                      The objectives of our audit were to determine (1) the status of
                      LMD’s strategic plans, accomplishments, partnerships,
                      performance, and existing challenges, and, (2) determine LMD’s
                      progress in preparing for the next catastrophic disaster. This is the
                      first comprehensive review of FEMA’s LMD since it was elevated
                      from a branch within the former Response Division to the
                      directorate level.

                      We reviewed the following key functional areas:

                          �   Staffing, Training, and Credentialing
                          �   Planning
                          �   Coordinating
                          �   Sourcing
                          �   Tracking and Timing Deliveries
                          �   Communications
                          �   Evaluating Performance

                      Audit fieldwork was conducted in the Washington, DC, area,
                      where we interviewed FEMA officials from LMD as well as other
                      agency components. We also interviewed regional FEMA officials
                      and representatives from federal partner agencies and
                      nongovernmental organizations.

                      We conducted our audit between January and September 2009
                      under the authority of the Inspector General Act of 1978, as
                      amended, and according to Government Auditing Standards issued
                      by the U.S. Government Accountability Office.




          FEMA’s Logistics Management Process for Responding to Catastrophic Disasters 


                                            Page 15
 

Appendix B
Management Comments to the Draft Report


                                                                              ll,S. IJ.p.... m.n' orUom.I,"d SooU"')
                                                                              ~ (. 5'''''<.1. S\\'
                                                                              \\",h,n~"... fl('   ,UHl




                                                                  ·l~~ FEMA
                                                                  \~
                                                                  '.,. ,,<"




                                               APH 3 0 2010



          MEMORANDUM FOR:              Mall Jadaeki
                                       Deputy Inspector General
                                       Office of Emergency Management Oversight
                                       Office of Inspector General
                                       tUrc;:~ &-
          FROM:                        'David 1. Kaufman          ,I

                                        Director
                                        Offieeofl>olicy and Program Analysis

          SUBJECT:                     Comments on DIG Draft Report, FEMA 's Logislics
                                       MmwgcmCIII Process for NcspoJldiJlg /0 Cfl/os/rQphic
                                       DisaSlers

          Thank you for the opportunity to review and eommelll on the Office of Inspector
          General's (OIG's) subject draft audit report, As the Federal Emergency Management
          Agency (FEMA) works toward refining its programs, the DIG's independent analysis of
          program perfonnanee greatly benefits our ability to continuously improve our activities.
          Technical comments have been provided under separate cover.

          FEMA concurs with the draft report's two recommt."11dations and has taken actions to
          implement them. While we will be providing corrective aetioll plilt1s in our 90-day
          response, we provide the following infomlation rclalive 10 the lWO recommendations:

          Recommendation I; Evaluate whether the Total Asset Visibility (TAV) system that is
          undt.'T development is on track to support logistics operations. Thc evaluation could
          include such functions as:
                   lnfonmuion technology systems' requirements,
                   Staffing needs. and
                   Coordination willt cmergeney management partners.

          Response: Actions arc ongoing to implement recommendation onc. TAV (renamed
          Logistics Supply Chain Management System/LSCMS) has undergone extensive reviews
          by FEMA and Department of Homeland Security (DHS) executivc Icvels to include the
          Acquisition Review Boards, Enterprise Arehiteelurc Boards. and Office of Chief
          Infonnation Officcr (OCIO) program rcviews. We have also been ineludt.'(\ in the FEMA




          FEMA’s Logistics Management Process for Responding to Catastrophic Disasters 


                                                  Page 16
 

Appendix B
Management Comments to the Draft Report




          Page 2

          acquisition portfolio review process. During these reviews, information technology
          systems' requirements, staffing needs, and coordination with emergency management
          partners have been, and continue to be, carefully and closely scrutinized. Our next DHS
          portfolio review is scheduled for May 27, 2010. In addition, during the course of this
          audit, we provided the orG team access to our SharePoint and all ofOUT signed approved
          documents and processes. The following documents contain the current performance
          metrics and can be found on the LCSMS SharePoint sile:
              • Operational Requirements Document
              • Exhibit 300
              • Acquisition Program Baseline
              • Performance Management Plan outlines our metrics strategy and is very detailed.
                  This document is neither required by DHS nor FEMA. However, the Logistics
                  Systems Program Office recognized the need for a definitive plan to accomplish
                  measurement tracking. This document is currently in draft and scheduled for a
                  preliminary review during 3rd quarter FYI O.
              • Master Schedule - monitored weekly by the Property Management Officer and
                  bi-weekly by OCIO.

          The FEMA OCIO has appointed a dedicated Delivery Manager to the LSCMSrrAV
          Program. Additionally, we conduct weekly Eltccutive Reviews at which the Chief
          Information Officer (CIa) personally participates. We also conduct bi-weekly meetings
          at which the project managers, along with OCIO key players, participate. The FEMA
          CIa attends and Co-Chairs these meeting.

          Recommendation 2: Work with state partners to identify and overcome state and local
          logistical deficiencies.

          Response: With a long-term goal of creating a logistics technical assistance program, we
          have been working with the states to develop and implement the Logistics Capability
          Assessment Tool (LCAn. The LCAT provides states an automated capability to self-
          assess their logistics maturity in five key areas: logistics planning, operations,
          organization, property management, and distribution management. We have also created
          a Standard Operational Procedure (SOP) that assists the states with the emergency
          supplies grant approval process as they determine their needs through the self-
          assessment.

          This is the second year of the Demonstration Program/LCA T. This initiative is a result of
          the Congressional Conference Report 109-699, pg 162, directing FEMA to develop and
          conduct a Demonstration Program with regional and local govenunents ''to improve
          readiness, increase response capacity, and maximize the management and impact of
          homeland security resources." Drawing upon input from select FEMA regions and
          states, FEMA developed a collaborative tool for use by states to help evaluate their
          current disaster logistics readiness, identify areas for targeted improvement, and develop
          a roadmap to mitigate weaknesses and enhance strengths. As of February 2010, FEMA




          FEMA’s Logistics Management Process for Responding to Catastrophic Disasters 


                                                   Page 17
 

Appendix B
Management Comments to the Draft Report




          Page 3

          has trained all 10 of its regions, conducted briefings for 35 states and territories. and has
          facilitated 12 two-day LCAT focus sessions with states and territories. See attached Fact
          Sheet.

          To further help improve state and local readiness, beginning in FY2009, critical
          emergency supplies, such as shelf stable food products, water, and basic medical supplies
          are an allowable expense under the State Homeland Security Program. Prior to Grant
          Programs approving grant funding, FEMA Logistics conducts a technical review to
          ensure the state has offcred a viable inventory management plan, an effective distribution
          strategy, considered sustainment costs, and has logistics expertise. FEMA Logistics
          continues to assist Grant Programs in monitoring and reviewing progress of the program.
          FEMA Logistics is also working with National Preparedness to publish a Logistics
          Comprehensive Planning Guide (CPG 201) to funher suppon state logistics planning and
          preparedness. This guide includes a standard logistics plan template, with instructional
          information on staging areas, points of distribution (PODS), LeAT, Critical Emergency
          Supplies (CES), United States Army Core of Engineers predictive modeling, and more.

          Thank you again for the opponunity to comment on this draft report and we look forward
          to working with you on other issues as we both strive to improve FEMA.

          Attachment




          FEMA’s Logistics Management Process for Responding to Catastrophic Disasters 


                                                     Page 18
 

Appendix C
FEMA Logistics Organizational Components

Below are descriptions of LMD’s major organizational components.

       Office of Logistics Transformation and Initiatives – Acts as the primary LMD
       transformation agent by researching, recommending, and integrating emerging
       concepts and initiatives to enhance the directorate’s mission.

       Distribution Management Division – Manages the FEMA warehousing and
       transportation systems used to receive, store, maintain, issue, distribute, and track
       supplies, as well as servicing material and equipment. The division is comprised
       of the following branches: Transportation Management, Supply Chain
       Integration, Regional Distributions Centers, and Maintenance.

       Business Management Division – Provides comprehensive administrative
       support for LMD’s fiscal, human capital, professional development, and training
       functions. It manages and integrates human resource objectives and formulates
       and oversees the budget. The division is comprised of the Human Capital and
       Training Branch and the Budget, Programs & Analysis Branch.

       Logistics Plans & Exercises Division – Develops and provides plans and
       exercises to the field aimed at identifying limitations and enhancing partners’
       readiness. From lessons learned during the exercises, the division implements
       corrective actions and conducts post-action reviews. The division is comprised of
       the following branches: Plans & Exercises and Assessment & Analysis.

       Logistics Operations Division – Manages and executes the command,
       coordination, tracking, and reporting for all-hazards operations. It serves as the
       central reporting element for the National Response Coordination Center on all
       logistics actions and operational activities and manages FEMA’s temporary
       housing unit program, maintaining custody of manufactured housing. The
       division is comprised of the Current Operations and the Logistics Support
       branches.

       Property Management Division – Provides oversight, internal control, and
       technical services to manage personal property assets and enhance its
       accountability, reutilization, and disposal. The division is comprised of the
       Logistics Systems Branch and the Inventory Management Branch.




           FEMA’s Logistics Management Process for Responding to Catastrophic Disasters 


                                             Page 19 

Appendix D
Major Contributors to this Report


                       Donald Bumgardner, Director
                       Eric Young, Supervisory Auditor
                       John Meenan, Senior Program Analyst
                       Alexandra Vega, Program Analyst
                       Kimberly Gilliland, Program Analyst
                       Nathaniel Nicholson, Auditor




           FEMA’s Logistics Management Process for Responding to Catastrophic Disasters 


                                             Page 20 

Appendix E
Report Distribution

                       Department of Homeland Security

                       Secretary
                       Deputy Secretary
                       Chief of Staff
                       Deputy Chiefs of Staff
                       General Counsel
                       Executive Secretariat
                       Director, GAO/OIG Liaison Office
                       Assistant Secretary for Office of Policy
                       Assistant Secretary for Office of Public Affairs
                       Assistant Secretary for Office of Legislative Affairs
                       FEMA Administrator
                       FEMA Audit Liaison (08-142-EMO)

                       Office of Management and Budget

                       Chief, Homeland Security Branch
                       DHS OIG Budget Examiner

                       Congress

                       Congressional Oversight and Appropriations Committees, as
                       appropriate




           FEMA’s Logistics Management Process for Responding to Catastrophic Disasters 


                                             Page 21
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
